HHS/OIG-Audit--"The Use and Equity of Child Support Enforcment Incentive
Payments at Selected States, (A-09-91-00034)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"The Use and Equity of Child Support Enforcement Incentive Payments
at Selected States," (A-09-91-00034)
April 22, 1992
Complete
Text of Report is available in PDF format (634 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes our audit of the use of Child Support Enforcement
(CSE) incentives and inequities in the incentive formula. We concluded that
incentive payments were used primarily to fund the State or local jurisdictions'
share of CSE costs. Some States realized significant savings from the State
share of collections for Aid to Families with Dependent Children, while their
counties incurred the costs of operating the CSE program. We also found that
the method used for calculating incentives was often inconsistent with the
Federal CSE performance objectives. We are recommending that incentives be
based on the States' demonstrated capability to meet Federal CSE requirements
and performance objectives.